<html>
<title> - PROTECTING AMERICA'S WORKERS: REVIEWING MINE SAFETY POLICIES WITH STAKEHOLDERS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]










                     PROTECTING AMERICA'S WORKERS:
                         REVIEWING MINE SAFETY
                       POLICIES WITH STAKEHOLDERS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, OCTOBER 21, 2015

                               __________

                           Serial No. 114-32

                               __________

  Printed for the use of the Committee on Education and the Workforce



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
           
                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-978                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001            
            
            
            
            
            
            
            
            
            
            
            
            
  
  
  
  
  
  
  
  
  
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                    TIM WALBERG, Michigan, Chairman
Duncan Hunter, California            Frederica S. Wilson, Florida, 
Glenn Thompson, Pennsylvania             Ranking Member
Todd Rokita, Indiana                 Mark Pocan, Wisconsin
Dave Brat, Virginia                  Katherine M. Clark, Massachusetts
Michael D. Bishop, Michigan          Alma S. Adams, North Carolina
Steve Russell, Oklahoma              Mark DeSaulnier, California
Elise Stefanik, New York             Marcia L. Fudge, Ohio



















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on October 21, 2015.................................     1

Statement of Members:
    Walberg, Hon. Tim, Chairman, Subcommittee on Workforce 
      Protections................................................     1
        Prepared statement of....................................     4
    Wilson, Hon. Frederica S., Ranking Member, Subcommittee on 
      Workforce Protections......................................     6
        Prepared statement of....................................     8
Statement of Witnesses:
    Elliot, Mr. Ed, Director of Safety and Health, Rogers Group, 
      Inc., Vincennes, IN........................................    36
        Prepared statement of....................................    38
    Kohler, Dr. Jeffrey, L., Professor and Chair of Mining 
      Engineering, Pennsylvania State University, University 
      Park, PA...................................................    11
        Prepared statement of....................................    13
    Sanders, Mr. Stephen A., Director, Appalachian Citizens' Law 
      Center, Whitesburg, KY.....................................    16
        Prepared statement of....................................    18
    Watzman, Mr. Bruce, Senior Vice President, Regulatory 
      Affairs, National Mining Association, Washington, D.C......    53
        Prepared statement of....................................    55
    Wright, Mr. Michael J., Director of Health, Safety and 
      Environment, United Steelworkers, Pittsburgh, PA...........    46
        Prepared statement of....................................    48
Additional Submissions:
    Chairman Walberg:
        Letter dated October 19, 2015, from the U.S. Department 
          of Labor, Mine Safety and Health Administration........    66
    Mr. Watzman:
        Letter dated October 28, 2015, from the National Mining 
          Association............................................    86
    Ms. Wilson:
        Letter dated October 30, 2015, from the U.S. Department 
          of Labor, Mine Safety and Health Administration........    91
 
                     PROTECTING AMERICA'S WORKERS:
                         REVIEWING MINE SAFETY
                       POLICIES WITH STAKEHOLDERS

                              ----------                              


                      Wednesday, October 21, 2015

                     U.S. House of Representatives

                Committee on Education and the Workforce

                 Subcommittee on Workforce Protections

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2261, Rayburn House Office Building. Hon. Tim Walberg 
[Chairman of the subcommittee] presiding.
    Present: Representatives Walberg, Thompson, Rokita, Brat, 
Bishop, Stefanik, Wilson, Pocan, and DeSaulnier.
    Also Present: Representatives Kline, Scott, Cartwright, and 
Courtney.
    Staff Present: Andrew Banducci, Workforce Policy Counsel; 
Janelle Belland, Coalitions and Members Services Coordinator; 
Ed Gilroy, Director of Workforce Policy; Jessica Goodman, 
Legislative Assistant; Callie Harman, Legislative Assistant; 
Christie Herman, Professional Staff Member; Tyler Hernandez, 
Press Secretary; Nancy Locke, Chief Clerk; John Martin, 
Professional Staff Member; Dominique McKay, Deputy Press 
Secretary; Brian Newell, Communications Director; Krisann 
Pearce, General Counsel; Alissa Strawcutter, Deputy Clerk; 
Juliane Sullivan, Staff Director; Loren Sweatt, Senior Policy 
Advisor; Olivia Voslow, Staff Assistant; Joseph Wheeler, 
Professional Staff Member; Tylease Alli, Minority Clerk/Intern 
and Fellow Coordinator; Christine Godinez, Minority Staff 
Assistant; Brian Kennedy, Minority General Counsel; Richard 
Miller, Minority Senior Labor Policy Advisor; Veronique 
Pluviose, Minority Civil Rights Counsel; Saloni Sharma, 
Minority Press Assistant; and Elizabeth Watson, Minority 
Director of Labor Policy.
    Chairman Walberg. Good morning. I decided to go with the 
flow here and have a new gavel this morning. Those of you at 
the table, you know what this is from a long wall scaling 
machine, and possibly a culprit in the past, but also something 
that is causing great opportunity in our coal mining industry 
as well. Forgive me if I use this today. I just have to make 
sure I release it ever so slowly with the weight that is in it.
    A quorum being present, the Committee will come to order. 
Good morning. I would like to thank you all for joining us 
today and thank our witnesses for being here to continue a 
discussion on the health and safety of American workers.
    Each day, men and women across this country work hard to 
earn a living and provide for their families. They deserve 
thanks for doing something they should do, but nevertheless 
thanks as well.
    They also deserve the security and peace of mind that comes 
from knowing their workplaces are safe and effective policies 
are in place to protect them. That is true whether an 
individual works at a desk, behind a counter, or in a mine.
    Two weeks ago we discussed the important role of the 
Occupational Safety and Health Administration and what it plays 
in that process in providing American workers the safe 
workplaces they deserve.
    Earlier this year we heard from Assistant Secretary Joe 
Main, head of the Mine Safety and Health Administration, who 
discussed the work his agency is doing to help keep miners 
safe.
    On each occasion, we urged the administration to hold bad 
actors accountable, as well as to work with employers and other 
stakeholders to identify gaps in safety and to implement 
responsible solutions. The goal is to prevent injuries and 
fatalities before they occur, and this responsible approach is 
the best way to achieve that goal.
    Today, we will hear from a number of stakeholders in the 
mining industry, including operators and labor and safety 
experts. There have been significant changes in the mining 
industry over the last several years, including the way health 
and safety policies are enforced.
    This hearing is an opportunity to hear what is working and 
what is not. As we all know, thousands of miners are employed 
by an industry that is vitally important to our nation's homes 
and businesses. I hope all levels of our governmental system 
hear that and acknowledge that.
    We also know these men and women work in an environment 
that is extremely dangerous, where some of the most basic tasks 
can be life threatening. It is hard to imagine working in a 
place where the very air you breathe is hazardous to your 
health. That is just one of the many hazards miners face.
    We have witnessed the deadly consequences that ensue when 
mine safety and health rules are not followed. Upper Big Branch 
is a painful reminder of what happened when bad actors put 
profit before safety, and a trial currently underway in West 
Virginia demonstrates the role our criminal justice system can 
play.
    Upper Big Branch is also a painful reminder of what happens 
when mine safety and health rules are not properly enforced. As 
an independent report from National Institute for Occupational 
Safety and Health noted, and I quote, ``If the Mine Safety and 
Health Administration had engaged in timely enforcement of the 
Mine Act, and applicable standards and regulations, it would 
have lessened the chances of and possibly could have prevented 
the UBB explosion.''
    In response, the agency has taken steps intended to improve 
safety, such as requiring the use of continuous personal dust 
monitors and proximity detectors, launching an impact 
inspection initiative, and changing the pattern of violations 
process.
    We have repeatedly called on MSHA to do better, and while 
we have not agreed with each action it has taken, we are 
pleased the agency is showing more of a commitment to using the 
tools it has to keep miners safe.
    Unfortunately, along with reports of effective enforcement, 
I have also heard reports of inspectors being overly aggressive 
in their citation policy. With one inspector, the majority of 
citations were found to be in error by a court. We agree that 
oversight of mine safety is imperative to worker safety, but we 
also want to ensure mines can continue to successfully operate 
and provide good jobs and security for its workers.
    We look forward to hearing from our witnesses on these and 
other actions MSHA has taken in recent years, understanding the 
state of the industry, seeing how current rules are not 
working, and discussing what we can do differently are vital to 
worker safety and job security.
    That is why we have asked you all to join us today. Each of 
you offers a different and important perspective on the 
policies in place to protect America's miners. Your views and 
expertise will help us answer a number of important questions.
    Are the policies that have been put in place in recent 
years working? If not, why not? Is enforcement more effective 
or less effective? Are there additional steps MSHA can take to 
strengthen protections?
    Your testimonies will help us ensure enforcement and 
regulatory policies serve the best interests of miners and 
their families. Again, I thank you for joining us. We look 
forward to your testimony and continuing this important 
conversation on worker safety.
    With that, I will now recognize our Ranking Member, Ms. 
Wilson, for her opening remarks.
    [The statement of Chairman Walberg follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Wilson. Thank you, Mr. Chair. I want to thank you for 
holding this hearing and giving us the opportunity to discuss 
how we can better protect the health and safety of miners. Our 
Ranking Member Scott, I want to thank you also for being here.
    When we discuss the health of miners, we must discuss 
finding ways to end black lung disease, and also to help those 
suffering from the disease secure the benefits they deserve.
    I was moved by the story of Steve Day, a miner, featured in 
the Center for Public Integrity's Pulitzer Prize winning 
investigation into the black lung benefit system. After 35 
years working in the coal mines and breathing in coal dust, 
Steve developed debilitating symptoms that made it impossible 
to perform even simple tasks. Instead, he was forced to spend 
his days sitting in a recliner next to the oxygen tank he 
relied on 24 hours a day.
    He was not able to even lie down to sleep next to his wife. 
To do so would overwhelm his lungs and leave him feeling as if 
he were suffocating. His wife slept restlessly in a nearby 
bedroom, jumping out of bed when he gasped for air and pounding 
him on the back until he coughed. I can only imagine the 
sleepless nights his wife spent fearful that if she should 
close her eyes for only a moment, she would wake up to hear he 
was not breathing at all.
    Steve represents the thousands of miners suffering from the 
debilitating disease that has killed 76,000 coal miners. Sadly, 
after years of decline, we have seen an alarming spike in the 
rate of black lung disease, including a ten-fold increase in 
the most severe forms of the disease.
    Black lung disease is entirely preventable. MSHA's 
respirable dust rule will reduce miner exposure to coal dust. 
Starting February 2016, mine operators must use a continuous 
personal dust monitor. This tool will allow for real time 
exposure information and give operators the ability to make the 
necessary adjustments to cut exposure faster.
    Beyond prevention, we must also ensure that miners who 
develop black lung disease get the benefits they deserve. Our 
Committee has not had a hearing on the Black Lung Benefits Act 
in almost 25 years. I am glad for this opportunity to hear from 
our witnesses about challenges faced by black lung claimants.
    Steve Day's story underscores some of those challenges. 
Although he was clearly suffering from black lung, his former 
employer used biased medical reports that led to the denial of 
his benefits claim. Sadly, it was not until Steve died at 67 
and an autopsy was performed that he was vindicated. According 
to experts, Steve suffered from one of the most severe cases of 
black lung they had ever seen.
    Miners with black lung disease fighting for their lives 
should not also have to fight against unfair tactics that 
needlessly delay or deny deserved benefits. That is why we must 
pass the Black Lung Benefits Improvement Act to provide miners 
with assistance in securing medical evidence and obtaining 
legal representation.
    Of course, we know that all mines are not coal mines. 
Today, we will also hear about safety issues in metal and non-
metal mines. Last year, fatalities in metal/non-metal mines 
reached a seven year high. This reminds us that we must ensure 
that we have the tools we need to protect miners' safety.
    As we discussed in our April hearing, the Robert C. Byrd 
Mine Safety Protection Act provides those much needed tools.
    I want to thank our witnesses for being here today. I look 
forward to your testimony, and I yield back.
    [The statement of Ms. Wilson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Chairman Walberg. I thank the gentlelady. Pursuant to 
Committee Rule 7(c), all subcommittee members will be permitted 
to submit written statements to be included in the permanent 
hearing record, and without objection, the hearing record will 
remain open for 14 days to allow statements, questions for the 
record, and other extraneous material referenced during the 
hearing to be submitted in the official hearing record.
    It is now my pleasure to introduce today's witnesses. The 
first witness, Jeffery L. Kohler, Ph.D., is professor and the 
George H. and Ann B. Deike Endowed Chair of Mining Engineering 
at Penn State University. Good Big Ten school. Dr. Kohler 
recently retired from the National Institute for Occupational 
Safety and Health as the associate director for mining, Office 
of Mine Safety and Health Research.
    Mr. Kohler teaches mining engineering courses and has 
conducted research in several areas, including electrical 
systems, materials handling, ventilation, quarry engineering, 
and mining methods. Welcome.
    Steve Sanders is director for the Appalachian Citizens' Law 
Center (ACLC). Mr. Sanders founded ACLC, an organization 
representing coal miners and their families on issues of black 
lung and mine safety in 2001. Mr. Sanders has more than 20 
years of experience as a public interest lawyer in eastern 
Kentucky.
    Mr. Sanders has represented miners in whistleblower 
discrimination cases as well as black lung benefits cases. 
Welcome.
    Ed Elliott is director of safety and health at the Rogers 
Group, and is testifying on behalf of the National Stone, Sand 
and Gravel Association. Mr. Elliott has been with Rogers Group 
in various safety positions since 1985. Mr. Elliott has earned 
numerous awards including the National Stone, Sand and Gravel 
Association Safety and Health Professional of the Year for 
2002, to Aggregate Managers Magazine Ag Man of the Year for 
2004, and Kentucky Crushed Stone Association Miner of the Year 
for 2014. Welcome.
    Michael Wright is director of health, safety and 
environment at United Steelworkers. As a former United 
Steelworkers' member myself, welcome.
    Mr. Wright has been with the Steelworkers since 1984. He 
served as a representative to the Bhopal accident 
investigation. Mr. Wright is often the Steelworkers' 
representative at regulatory and congressional hearings. 
Welcome.
    Bruce Watzman is the senior vice president for regulatory 
affairs at the National Mining Association. Mr. Watzman has 
worked for the National Mining Association and its predecessor, 
the National Coal Association, since 1980.
    Mr. Watzman was recently appointed as a member of the Mine 
Safety and Health Research Advisory Committee. I welcome you.
    I will now ask our witnesses to stand, as is our 
requirement here, and raise your right hand.
    [Witnesses sworn.]
    Chairman Walberg. Thank you. You may be seated. Let the 
record reflect our witnesses each answered in the affirmative 
and you may take your seats.
    Before I recognize you to provide your testimony, let me 
briefly remind you of our lighting system, and I think most of 
you understand that. It is a traffic light. As long as it is 
green, keep going in your five minutes of testimony. When it 
hits yellow, rush through or slow down, but to the point when 
it turns red, end your comments as soon as possible to give us 
an opportunity to ask the questions, probably to respond to 
what you wanted to say anyway.
    Now for the first five minutes of testimony, I will 
recognize Dr. Jeffery Kohler.

  TESTIMONY OF DR. JEFFERY L. KOHLER, PROFESSOR AND CHAIR OF 
 MINING ENGINEERING, PENNSYLVANIA STATE UNIVERSITY, UNIVERSITY 
                            PARK, PA

    Dr. Kohler. Good morning, Mr. Chairman, and other 
distinguished members of the Committee. My name is Jeff Kohler, 
and I am a professor and chair of mining engineering at Penn 
State. I am pleased to be here today to provide a forward 
looking perspective on mine safety based on my experience of 
more than 40 years in mining, working in academia, government, 
and industry.
    The global economy continues to be powered by mining and 
mine products. Examples include energy sources like coal, 
construction materials that utilize iron, copper, or 
aggregates, the rare earth minerals, pharmaceuticals, 
agricultural produce, and thousands of every day items that 
depend on mining.
    The associated mining and processing operations are a 
significant driver for the economies of the producer countries, 
15 percent of the U.S. and 25 percent of the global economy, 
for example.
    Fundamental economic value and wealth are created in the 
transformation of materials from the earth's crust, and the 
welfare of the men and women who make this possible must be of 
the highest concern.
    Remarkable gains in mine safety have been made over the 
years, but more remains to be done. The goal must be to 
eliminate fatalities and further reduce injuries. Indeed, many 
mining companies have committed to the goal of zero harm and 
are to be commended for taking actions to achieve it.
    If we are to be successful on this journey to zero harm 
across all commodities and at all mines, what steps should be 
taken? We need to dispel the belief that compliance with 
regulations is sufficient to prevent adverse safety outcomes. 
Regulations provide an important base to define minimum 
performance but regulatory intervention alone will not do it.
    Engineering interventions such as new technologies and 
design practices will contribute to improved safety, but alone 
will not take us to the goal.
    Training, the third intervention of a triad, that has 
characterized the long-standing approach to improving mine 
safety, also will contribute to incremental gains. As with the 
other two intervention approaches, it has limitations.
    Instead, we should recognize that safety performance is the 
result of a complex system of organizational, managerial, 
labor, and technical components, and we must manage it 
accordingly, and involve people from every part of the mining 
enterprise.
    A framework for this is commonly known as ``a health and 
safety management system,'' and such systems have been put into 
practice in other industries and countries. The National Mining 
Association, for example, has led the development of a 
comprehensive system for mining known as ``CORESafety,'' and 
has developed materials to expedite implementation. Already, 
companies in the coal, metal/non-metal, and aggregate sectors 
have embraced CORESafety and its principles.
    The journey to zero harm with this approach at its core 
will not happen overnight, and it will not be without its 
challenges. However, in my view, this approach represents a 
game changer that will enable a change in the safety culture 
and facilitate obtainment of the goal much as has happened 
elsewhere.
    The in-place regulatory interventions will remain important 
as will enforcement of those regulations by well trained and 
equipped inspectors. Training interventions for everyone 
involved in mining will be as important as ever, but to be 
effective, we must bring our training practices and 
requirements into the twenty-first century.
    As a start, the findings of a recent National Academies' 
study on improving self escape for mine workers offers 
important insights to improve the effectiveness of training in 
general.
    The Mine Act brought new technologies into the mines, such 
as the communications and tracking systems in use throughout 
the coal industry, as well as the long awaited improvements in 
oxygen supply. The principles of human systems integration will 
allow future engineering interventions to be even more 
successful.
    Occasionally, despite the best efforts of manufacturers, 
government, and industry, technology falls short. Such is the 
case with mobile refuge chambers. Miners and mine operators 
have no confidence that these units can be deployed and 
utilized to save lives during an emergency. Rather than 
continue a facade, we should move forward with a known and 
workable alternative, the in-place shelter. While not perfect 
nor universally applicable, it represents a superior 
alternative for a majority of miners.
    Finally, I would like to underscore once more the 
importance of mining to this nation and the importance of mine 
workers' safety to mining. Also, I would note that research and 
the research products from the great mining schools in this 
country will help this vital industry to remain competitive and 
to achieve its goal of zero harm.
    Thank you.
    [The statement of Dr. Kohler follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
      
    TESTIMONY OF STEPHEN A. SANDERS, DIRECTOR, APPALACHIAN 
              CITIZENS' LAW CENTER, WHITESBURG, KY

    Mr. Sanders. Thank you, Chairman Walberg, Ranking Member 
Wilson, and the other members of the subcommittee. I appreciate 
your commitment to protect the health and safety of America's 
miners.
    My name is Steve Sanders. I am an attorney, and I have been 
representing miners and widows in black lung benefits claims 
for over 25 years. I have also represented miners who were 
victims of discrimination for insisting on safe working 
conditions.
    There are three points that I want to make today. First, 
black lung is a serious problem and it continues to disable 
miners and cause deaths. New data shows that the most serious 
form of coal workers' pneumoconiosis is present at an alarming 
rate.
    MSHA's regulations reducing respirable dust levels and 
requiring continuous personal dust monitors and other measures 
to get accurate sampling of dust exposure are critical for 
protecting miners.
    Additional safety measures encouraging miners to use their 
statutory rights as a miner's representative and to be 
protected from discrimination are needed.
    Third, the black lung benefits program is a good program. 
It serves people well. But there are improvements needed to 
make it a fairer and more efficient program.
    The continuous personal dust monitor is long overdue, and 
it is necessary to fulfill the promise made nearly 50 years ago 
in the 1969 Mine Safety Act, which said that the purpose of the 
law was to provide that working conditions in mines are 
sufficiently free of respirable coal mine dust to permit a 
miner to work during his entire working life without any 
disability from pneumoconiosis or occupation-related disease.
    Coal workers' pneumoconiosis is preventable. It is caused 
by breathing minute dust particles, small invisible particles 
that get into the lung and destroy the lung tissue and cause 
fibrotic reactions. Some individuals develop a more complicated 
form of pneumoconiosis, sometimes known as progressive massive 
fibrosis.
    Recent reports from NIOSH show that in the last 15 years, 
there has been an alarming rise in the incidence of progressive 
massive fibrosis, and the disease is at the highest level since 
the early 1970s.
    The continuous personal dust monitor will allow miners to 
monitor their own exposure to dust. This is the continuous 
personal dust monitor if anyone wants to look at it (holds up 
device). It is designed so that it picks up the air where the 
miner is working and it can show on the monitor what the 
exposure is. Using that information, miners and management can 
prevent exposure to excess dust.
    I also support MSHA's new requirement that dust sampling be 
done at no less than 80 percent of average production and that 
sampling be done for the full working shift, not just for eight 
hours.
    As this dust monitor becomes a tool for miners to use to 
detect high levels of dust, it is important that miners use 
their statutory safety rights. It is important that MSHA 
strengthen the role of what is known as a ``miner's 
representative,'' and MSHA assist miners who feel they have 
been retaliated against for making safety complaints.
    In my written testimony, I discuss the cases of Scott 
Howard and Reuben Shemwell. They illustrate how some coal 
companies try to discourage miners from making safety 
complaints, and how they retaliate against miners who do make 
complaints.
    As the judge noted in Mr. Shemwell's case where the company 
sued him in state court after he had filed a protected mine 
safety complaint, ``The primary effect of the civil suit was to 
discourage future complaints from other miners.''
    The coal communities often are small populations, and that 
word goes out, if you will, that the company has responded in a 
heavy-handed manner.
    I also wanted to make a few comments about the black lung 
benefits program. It provides much needed financial support for 
disabled miners and widows, and it provides the miner with 
medical treatment for his respiratory condition, but there are 
areas that need to be improved.
    The facts in the Gary Fox case showed that some companies 
cherry picked their evidence that they showed to the pulmonary 
experts, that they submit to judges, to support their defense 
of a claim. No family should have to endure what the Fox family 
suffered.
    Any medical information that the coal company acquires 
concerning the miner's condition should be disclosed.
    I see I am running out of time. But if I could just mention 
that the other part of the bill that I think is very important 
is a provision in there to assist miners in getting attorneys 
to represent them in these claims, because they are complex 
claims, and to assist miners in obtaining sophisticated medical 
evidence to support their claims.
    Finally, there are unnecessary delays in processing these 
claims, and if the Committee could assist in seeing that 
backlog of claims pending at the Office of Administrative Law 
Judges was able to be processed in a more speedy way, it would 
be a great service to miners and their widows.
    Thank you.
    [The statement of Mr. Sanders follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
    Chairman Walberg. Thank you, Mr. Sanders. Mr. Elliott, I 
recognize you for your five minutes of testimony.

TESTIMONY OF ED ELLIOTT, DIRECTOR OF SAFETY AND HEALTH, ROGERS 
    GROUP, INC., VINCENNES, IN, TESTIFYING ON BEHALF OF THE 
           NATIONAL STONE, SAND & GRAVEL ASSOCIATION

    Mr. Elliott. Thank you, Chairman Walberg, Ranking Member 
Wilson, and members of the Subcommittee on Workforce 
Protections.
    My name is Ed Elliott. I am the Director of Safety and 
Health for Rogers Group, Inc. Today, I am pleased to testify on 
behalf of the National Stone, Sand & Gravel Association. Rogers 
Group is the largest privately owned crushed stone producer in 
the nation, providing construction grade aggregates, 
transportation, and infrastructure construction services in 11 
states.
    The shareholders and leadership of Rogers Group, Inc. are 
committed to the safety and well-being of their employees, 
neighbors, and communities.
    The National Stone, Sand & Gravel Association is the 
world's largest mining association by product volume. NSSGA 
represents the crushed stone, sand and gravel industries, and 
its member companies produce more than 90 percent of crushed 
stone and 70 percent of the sand and gravel consumed annually 
in the United States.
    The aggregate sector has a long history of commitment to 
becoming the safest and healthy as possible in the production 
of aggregates.
    We collaborate with government agencies, most notably MSHA, 
with which NSSGA signed an alliance agreement for education and 
training 13 years ago. This has given birth to a number of 
effective compliance assistance programs such as safety alerts 
derived from MSHA injury data.
    Also, we collaborated with MSHA on the development of an 
instructional video for MSHA inspector trainees on the operator 
perspective on compliance.
    Nevertheless, we find many of MSHA's regulations overly 
burdensome without requisite benefits to health and safety. We 
believe the proposed civil penalties reform rule does not meet 
its stated goals and is likely to result in dramatic increases 
in penalty assessments.
    Additionally, we are concerned that MSHA's regulatory 
agenda calls for a rule on crystalline silica to be proposed 
next April. We believe that an objective rendering of the 
relevant scientific evidence demonstrates that the current 
permissible exposure limit, if fully complied with and 
enforced, is protective of worker health.
    MSHA is to be applauded for its good stakeholder outreach 
which has been ramped up in the past several years. Also, the 
agency has achieved important reductions in inconsistent 
enforcement by its inspectors, but improvements are still 
needed with ongoing vigilance by agency leadership.
    Regrettably, however, we believe that MSHA enforcement 
efforts have not focused as much as they should on those 
conditions of highest risk, especially in today's resource 
challenged environment. We believe that MSHA enforcement should 
focus on areas of greatest potential peril.
    The dichotomy of more expansive enforcement simultaneous to 
operator success in continuing to reduce injuries and 
fatalities risk undercutting the cost for safety and health. It 
also jeopardizes the perception of MSHA as a genuine respected 
government entity working for the common good.
    Many operators fear there is a bureaucratic push within the 
agency for inspectors to meet a quota of citations written. 
While agency leaders deny any quotas, it is difficult for 
operators to conclude anything else based on experience.
    One excellent operator last year saw around half of all 
routine inspections result in zero citations. This makes sense 
because the operator has been diligent in investing time and 
capital into clearly meeting all of MSHA's standards.
    However, what does not make sense, in 2015, inspectors have 
issued a significant increase in the number of citations 
simultaneous to the company having further improved its safety 
performance. Inspectors arrive saying in advance this will not 
be a zero citation inspection.
    I hope you understand operators cannot help but wonder if a 
decision is based on the facts or on bureaucracy based pressure 
within the agency to boost the number of citations issued.
    We believe that improvement would be achieved if MHSA would 
establish a pattern of compliance program. This would enable 
the inspectorate to grant some form of enforcement credit to 
operators for outstanding adherence to MSHA standards and 
keeping low rates of injuries.
    We support further investment in compliance assistance as 
called for in the Mine Act. Quality training materials that 
demonstrate compliant practices should become an agency point 
of emphasis.
    Also, we support revitalization of the agency's provision 
of quality compliance assistance to small mine operators.
    Mr. Chairman, we stand ready to work with MSHA in a common 
sense approach to regulation and enforcement. Further, we urge 
that MSHA seek new and innovative ways to help us achieve our 
common goal of zero injuries in a way that the limited 
resources of the Federal Government can be targeted at the most 
serious hazards.
    Thank you, and I will be happy to respond to any questions.
    [The statement of Mr. Elliott follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Chairman Walberg. Thank you. Mr. Wright, I recognize you 
now for your five minutes of testimony.

TESTIMONY OF MICHAEL J. WRIGHT, DIRECTOR OF HEALTH, SAFETY AND 
        ENVIRONMENT, UNITED STEELWORKERS, PITTSBURGH, PA

    Mr. Wright. Thank you, Mr. Chairman, and thank you, Ranking 
Member Wilson, and other distinguished members of the 
subcommittee.
    My name is Mike Wright. I am the Director of Health, Safety 
and Environment for the United Steelworkers. Our union 
represents 850,000 workers in a wide variety of industries, 
including the majority of unionized metal and non-metal miners 
in the United States and Canada. Altogether we represent more 
than 15,000 miners who work in about 138 mines in the U.S. We 
represent another 18,000 in Canada.
    I have never worked as a miner personally and do not 
consider myself to be one, but I have done safety and health 
work in several dozen mines in the United States, Canada, 
Poland, and Russia. I am also a member of NIOSH's Mine Safety 
and Health Research Advisory Committee, and for what it is 
worth, my Part 48 training is updated.
    MSHA's impact has been enormous, even if we take into 
account the decline in mining employment since 1977, the year 
the Mine Act was passed, the death rate from traumatic injury 
in our nation's mines has dropped by 77 percent. That number 
does not include the miners saved from lingering deaths from 
diseases like black lung and silicosis.
    Of course, MSHA was not the sole cause of the decline. 
Technological change, mine safety research, mine operators 
themselves, mining unions, all played a part. MSHA was the 
driving force, the catalyst for all the good things that 
happened.
    Even so, there is lots of room for improvement. We lost 45 
miners in mine accidents last year, 25 so far this year. Let me 
offer a few suggestions for improving mine safety and health. 
Most importantly, there should be no backward steps. Every year 
there are proposals to exempt a particular group of mines from 
some set of legal requirements or to cut back on inspections 
and penalties, or to shift MSHA's resources away from 
enforcement toward voluntary programs, or to reward so-called 
``safe mines.''
    The problem is determining that a mine is truly safe and 
stays that way. Our union had some sad experience with this 
issue. On April 9, 1992, the Westray Coal Mine in Nova Scotia 
won the prestigious John T. Ryan Award given annually to the 
Canadian coal mine with the fewest injuries. Exactly one month 
later a methane and coal dust explosion killed all 26 miners 
underground at the time.
    We were working at the time to bring the mine into our 
union, and although it never reopened, we continued to 
represent the families and the remaining miners through the 
long years of inquests and hearings, and that is the worse 
mining disaster in recent Canadian history.
    Other proposals would disallow MSHA's citations for first 
violations, giving those mine operators a free pass to violate 
the law until caught. Miners, of course, get no such free pass, 
and do not spring magically back to life the first time they 
are killed, like in some video game.
    Others would give more weight to voluntary compliance. We 
are all for voluntary compliance, but the problem with 
voluntary compliance is not everybody volunteers. In fact, 
enforcement stimulates voluntary efforts. Reduce the one and 
you will reduce the other.
    What about forward steps? Let me suggest a few. First, MSHA 
enforcement is based on a rule book of mandatory standards. 
Those standards are necessary but no effective corporate safety 
program relies on passive compliance with a rule book. Instead, 
good programs actively seek out and correct workplace hazards.
    MSHA began preliminary work on a new safety and health 
program standard six years ago, but it has languished. No new 
regulation or initiative would have a greater positive impact 
on mine safety and health.
    Second, MSHA should take a careful look at the 
effectiveness of its current Part 48 training programs. The 
problem is not so much the length of the training but the 
content and especially the methodology. Too often miner 
training, especially refresher training, consists of bored 
miners watching PowerPoints or videos from equally boring 
instructors without any real interaction or discussion of the 
safety problems they encounter on the job. A full scale review 
by MSHA including experts in adult education could lead to new 
guidance, regulation if necessary, and in the end, better 
trained miners.
    Third, there should be greater collaboration between OSHA 
and MSHA. There are some hazards that overlap between the two 
agencies. We have seen too many examples where OSHA and MSHA go 
their separate ways and do not work together. That should 
change.
    Finally, let me turn to what Congress could do. The Mine 
Act is a good law but it has a few key flaws which could be 
corrected. For example, MSHA should be given subpoena 
authority. That is enjoyed by OSHA and by other Federal 
agencies. MSHA needs that to conduct investigations.
    Second, there should be a better way to collect uncollected 
fines. We think that could be done through withdrawal orders, 
but MSHA would need legislative authority to do that.
    Finally, criminal penalties need to be increased. It is 
scandalous that the penalty for killing a miner through a 
willful violation of a standard is one year in prison. To give 
a counter example, the penalty for damaging a coral reef or for 
harassing a wild burro on Federal land is five years. What 
message does it send when the Federal Government values the 
serenity of a burro over the life of a miner.
    These problems and others could be corrected by H.R. 1926, 
the Robert C. Byrd Mine Safety Protection Act of 2015, 
introduced by Representative Scott, the Ranking Member of the 
full Committee, and co-sponsored by Ranking Member Wilson, and 
many others. We urge its passage.
    Thank you.
    [The statement of Mr. Wright follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Chairman Walberg. Thank you. I now recognize for five 
minutes of testimony, Mr. Watzman.

 TESTIMONY OF BRUCE WATZMAN, SENIOR VICE PRESIDENT, REGULATORY 
     AFFAIRS, NATIONAL MINING ASSOCIATION, WASHINGTON, D.C.

    Mr. Watzman. Thank you, Mr. Chairman, Ranking Member 
Wilson, and members of the subcommittee. I appreciate the 
opportunity to be here.
    In the time I have, I want to cover two areas, what we are 
doing voluntarily to drive safety performance improvement, and 
problems with MSHA that are impediments to improvement.
    In 2011, after having concluded that the current pace of 
safety performance was not acceptable, NMA initiated 
CORESafety, a first of its kind safety and health management 
system designed specifically for U.S. mining, to take a more 
aggressive approach to improve performance.
    At the heart of CORESafety is fatality prevention and risk 
management. CORESafety is not about saving miners after 
accidents. It is about identifying at risk conditions, 
practices, and behaviors that lead to accidents in order to 
prevent them, and it is making a difference.
    In our view, risk based safety and health management 
systems are more likely to move safety performance to the next 
level. Experience shows that safe behavior does not occur in a 
vacuum. It is shaped by leadership and culture. These are 
characteristics that are taught and nurtured, not legislated or 
regulated. They are at the heart of CORESafety.
    Beyond what the industry is doing voluntarily, we are long 
past the time of debating the need to reform MSHA, to modernize 
the agency in the manner in which it conducts its business.
    Despite what some believe, impact inspections, rules to 
live by, and pattern of violations will not get us to zero 
fatalities. MSHA enforcement initiatives by focusing on 
conditions represents a reactive approach to safety that has 
had and will continue to have limited access.
    We have an opportunity to drive further improvement but not 
in the enforcement environment that exists today. Today, the 
mining industry is undergoing fundamental change, but the 
agency is wedded to a model with diminishing returns. From 2010 
through the end of 2014, the number of operating mines has 
declined precipitously.
    Yet, during this period, MSHA's budget, including the 
request for this year, is at a 12 percent increase. The reduced 
number of mines provides an opportunity to re-evaluate how MSHA 
allocates its resources and how the resources are applied.
    MSHA remains a fix to a model where today it is not 
uncommon for multiple inspectors to be on site every day. This 
is unnecessary and counterproductive, and as one might inspect, 
enforcement leads to adjudication, and this is the second area 
in need of reform, the broken citation conference process.
    Another area in need of reform is MSHA's selective 
recognition of the incorporation of new technology. The Miner 
Act established within NIOSH the Office of Mine Safety and 
Health. The office is responsible for research, development, 
and testing of new technologies and equipment designed to 
enhance mine safety and health.
    While MSHA is not bound by NIOSH's recommendations, they in 
some respects have become the technical advisor to NIOSH. In 
this regard, we are concerned that MSHA in certain instances 
prematurely promulgates regulations that impose technology 
requirements in advance of NIOSH completing the necessary 
research.
    An example will illustrate this. On September 15 of this 
year, MSHA issued a proposed rule to require operators of 
underground coal mines to equip certain pieces of equipment 
with what is known as proximity detection technology. While 
proven on an earlier category of equipment, this technology 
suffers from interference problems on the category of equipment 
covered by this proposed rule.
    Despite this and despite the fact that NIOSH has not tested 
the technology, MSHA's proposed rule requires the wholesale 
application of this where practically every application is 
unique and most are untested.
    Furthermore, this structure of the rule creates a huge 
disincentive for operators to apply the technology ahead of the 
rule.
    Similarly, we continue to face problems relative to the new 
technology required by MSHA's final coal dust rule. The 
inability to differentiate between rock dust and coal dust 
particles gives rise to a conflict between the coal dust rule 
and the agency's enhanced rock dust requirements.
    Additionally, the difference in sample compliance 
determinations using the current sampler and the new sampler 
continues to raise concerns, especially as the February 2016 
date for the phase in of the second part of the rule looms.
    Finally, it is time for MSHA to adopt the voluntary 
protection program for mining. Some will take this to mean that 
we are advocating an end to what is commonly referred to as the 
4s and 2s, the statutory requirement for inspection of all 
mines.
    Let me be clear. That is not what we are advocating. 
Rather, a VPP would provide MSHA the ability to shift its focus 
of exemplary mines, which it would determine, from an 
enforcement to a compliance assistance approach.
    In closing, let me stress that to modernize and improve 
safety performance, we need to move beyond a model based 
strictly on enforcement. Enforcement is necessary, but we have 
to develop higher standards that engage employees and encourage 
cooperation.
    CORESafety and the VPP program are positive steps that 
would move the industry in that direction.
    Thank you.
    [The statement of Mr. Watzman follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  
    
    Chairman Walberg. Thank you. As I listened to each of you, 
it is interesting to think about the impact of mining. I jumped 
on a Great Lakes freighter at the Port of Monroe in my district 
this past Sunday night, watching the unloading of tons of coal 
into the hopper from a Great Lakes' 1,000-foot cargo ship 
headed up through the Detroit River, Lake Sinclair, Sinclair 
River, Lake Huron, St. Mary's River, to the Soo Locks.
    All along the way, I saw either piles of aggregates, 
metallic, non-metallic, piles for steel mills and power plants 
all along the way. All the results of the mining industry.
    Each of you represent portions of that that we want to make 
sure works, so thank you for your testimony.
    Let me welcome also to our Committee a distinguished 
colleague from Pennsylvania, Congressman Cartwright. Thank you 
for joining us. Without objection, Congressman Cartwright is 
permitted to participate in our hearing today. I certainly hear 
no objections. Also, it is a delight to welcome a good friend 
and colleague, Mr. Courtney, joining us today as well.
    I recognize myself now for five minutes of questioning. Mr. 
Watzman, on September 26, the Committee requested MSHA provide 
information related to the mandatory operation of continuous 
personal dust monitors--we have evidence of one here in the 
room--in light of the potential for a new rock dust composition 
to prevent CPDMs from accurately reading coal dust in the 
atmosphere.
    Just Monday of this week, we received a letter back from 
MSHA. I will place that letter into the record, without 
objection, hearing none.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
 
    
    Chairman Walberg. MSHA states ``The concerns expressed in 
the letter are unfounded.'' Mr. Watzman, I know you received a 
similar letter this week. Do you agree with MSHA's assessment 
of CPDM as it relates to changes to rock dust?
    Mr. Watzman. We do not agree with the agency. We similarly 
have reached out to the agency to try to work cooperatively 
with them. We sought their participation in undertaking studies 
underground, looking at rock dust and coal dust, and the 
possible contamination of one by the other, and up to this 
point, the agency has not been willing to participate in a 
robust peer review study with all of the stakeholders.
    We think it is a problem. We think it is something that 
needs to be studied, and hopefully that will occur before the 
February implementation date of the second phase of the rule 
where the CPDM is required.
    Chairman Walberg. What might be the reason for a problem in 
participating in that study?
    Mr. Watzman. That is left best to be answered by MSHA. We 
do not know why. We are all seeking the same goal here and the 
same objective, and that is to protect miners, and to do it in 
an accurate manner. We do not know why MSHA has been resistant 
and not willing to participate with us.
    Chairman Walberg. Mr. Elliott, MSHA is a unique agency in 
that it is required to inspect all facilities under a 
regulatory arm, at least bi-annually. NSSGA members, your 
members, will see an MSHA inspector at least twice a year if 
not four times, if I am correct. As a safety and health 
professional, what do you think would improve the interaction 
between mine operators and MSHA?
    Mr. Elliott. That is a good question. When you look at the 
circumstances in many instances where an inspector comes on-
site, they are looking--primarily focused on regulations and 
what violations they might be able to find.
    I think by opening up a broader dialogue, as Mr. Wright 
talked about, looking at the overall safety and health program 
at a mine, that inspector could get a better idea of what is 
going on in the process of managing safety every day.
    To your point about the inspector may come one, two days, 
three days, maybe even four days in a large mine, but the rest 
of the year, they are not there. They cannot regulate how those 
miners are going to act or the operator is going to act once 
they are not there.
    I think just opening up a broader dialogue about safety as 
a whole versus just regulatory enforcement would be of great 
benefit coming from both sides.
    Chairman Walberg. A true partnership.
    Mr. Elliott. Yes, sir.
    Chairman Walberg. Dr. Kohler, you have extensive experience 
in this field, especially in the area of safety. You have been 
following the CPDM rock dust debate, I am certain. Can you 
provide additional insight about the concerns each party is 
expressing?
    Dr. Kohler. Yes, I can. First, the use of real-time 
monitoring devices represents a great opportunity to deal with 
a lot of occupational health problems that we could not deal 
with before. The advent of a technology like PDM we viewed 10 
years ago, five years ago, as being the single greatest 
opportunity to eliminate black lung because for the first time 
people would know in real time what the exposure was and they 
would be able to address that exposure.
    More recently, that vision that I and others shared to do 
that has developed a problem, and that is a conflict with the 
rock dusting practice. A few years back in NIOSH's 
investigations they determined that the amount of rock dust 
being used was not protective and the amount needed to be 
increased.
    Further, they determined that the existing standard for 
rock dust and the definition for rock dust also were in need of 
modification to make it more protective.
    The end result of this is that there has been a tremendous 
increase in the amount of rock dusting and also rock dusting 
more extensively throughout the mine.
    A few years back we looked at rock dust as a nuisance and 
we never really thought a lot about the impact of rock dust on 
something like a respirable dust sampling program. It turns out 
rock dust is a confounder. Rock dust shows up on the cassette 
in the PDM the same as coal dust does, and effectively wipes 
out the ability to know what the coal dust exposure is, which 
is the bad actor we are trying to deal with.
    There are important reasons why this needs to be resolved 
and it is essential that we resolve it through additional 
testing/experimentation, and we make an informed decision about 
how to go forward with this important technology.
    Chairman Walberg. Thank you. My time is expired. I now 
recognize the Ranking Member, Ms. Wilson, for her five minutes.
    Ms. Wilson. I yield to Mr. Scott.
    Chairman Walberg. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. I appreciate the 
Ranking Member asking me to be recognized first.
    Mr. Sanders, the device beside you does real-time 
monitoring. How is that different from what is going on now and 
why is that important?
    Mr. Sanders. It is important, Mr. Scott; the real-time 
monitoring enables the miner and the mine management to know 
what the level of respirable dust is in the atmosphere where 
the miner is working.
    I am not an expert on these devices but this clips to the 
miner's clothing and it actually takes in a sample of air.
    Mr. Scott. How is that different from what is going on now?
    Mr. Sanders. What is going on now, the miner is generally 
not being able to get the real-time readout, that is, the 
information is collected but then it is later processed, and 
the information comes back days or even weeks later. The 
atmosphere is continually changing, they are moving forward or 
retreating in the mine. The information that comes back may 
indicate there was a violation but it does not help us to 
correct the problem to prevent the injuries.
    Mr. Scott. Thank you. Mr. Sanders, the black lung benefits 
program is an adversarial system. In your testimony you talk 
about the fact that workers are not well represented. What 
specific proposals would you have to level the playing field so 
that workers could be better represented in this adversarial 
proceeding?
    Mr. Sanders. I think the legislation that has been 
proposed, the Black Lung Benefits Improvement Act, has a very 
good basis. What I think are the problems are partly that 
attorneys are deterred by the complexity, the need to develop 
sophisticated medical evidence with a client who has no 
resources to pay for that, and the attorney cannot be paid for 
his services by his client. Under the Federal black lung 
program, the attorney that represents the claimant gets a fee 
if the claimant is awarded benefits and if the award is upheld 
through appeals so the award is final.
    In many of these cases, I would say the average is at least 
four years before you get to that point, and in many of the 
cases, they go on longer.
    There was an article recently in the Charleston Gazette 
about a case that went on for 21 years. The attorney 
representing the miner in that claim gets no compensation 
unless the miner wins and the award is upheld.
    The Black Lung Benefits Improvement Act created a way that 
an attorney could get a partial fee through the Trust Fund if 
they are successful at various stages in the proceedings, and 
then that payment from the Black Lung Disability Trust Fund 
would eventually be paid back by the operator if the award is 
upheld. It also provides for a payment for medical expenses 
incurred by the claimant to develop the kind of sophisticated 
evidence they need to prove their case.
    Mr. Scott. Speaking of medical evidence, the Department of 
Labor has decided not to accept medical evidence from a 
particular physician whose diagnoses turn out to be somewhat 
questionable. If someone has been disadvantaged by bogus 
medical evidence, what can be done or what should be done in 
those cases?
    Mr. Sanders. In the particular case you are talking about, 
the Department of Labor determined that a particular 
radiologist's readings where he never read an x-ray to show 
complicated pneumoconiosis or progressive massive fibrosis 
despite many cases where miners died and their autopsies proved 
they had that condition. They said that any claimant whose 
claim turned on that doctor's reports would get another shot at 
it. I think that was a good result.
    I think so much of this really is a battle of medical 
experts, so it is hard to know at what point does the expert 
simply become a fraud. It is hard to remedy that, other than 
good representation in the individual claim.
    Mr. Scott. Thank you. Mr. Wright, you indicated the 
importance that safety inspectors have subpoena power. Why is 
that important?
    Mr. Wright. Because in doing especially a complicated 
investigation like Upper Big Branch, they need to be able to 
compel testimony and they need to be able to compel the 
production of documents which may not be documents that are 
normally required under the Mine Act but which are nevertheless 
relevant.
    In the Upper Big Branch investigation in particular, since 
MSHA did not have subpoena authority, it had to work through 
the state agencies and really do its investigation through the 
state, which did have that subpoena power. That worked in West 
Virginia. It would not work in Nevada, it would not work in 
Wyoming, where there is no such state power.
    It makes a lot of sense to us that since OSHA has that kind 
of authority, since many other Federal agencies have that kind 
of authority--I think the example I used in my written 
testimony was the Federal agency charged with promoting the use 
of popcorn actually has subpoena authority. MSHA does not, and 
that should be corrected.
    Mr. Scott. Thank you.
    Chairman Walberg. I thank the gentleman. I recognize now 
the gentleman from Indiana, Mr. Rokita.
    Mr. Rokita. Thank you, Chairman, I appreciate you 
organizing this hearing. I appreciate the witnesses' testimony 
this morning.
    Mr. Sanders, are you familiar with the concept of a 
voluntary protection program as used in other agencies, not 
MSHA, but in other agencies?
    Mr. Sanders. No, I am not.
    Mr. Rokita. Thank you. Mr. Wright, are you familiar with 
the concept of a voluntary protection program as used in other 
agencies?
    Mr. Wright. Yes, very familiar.
    Mr. Rokita. Do you have positive things to say about such a 
program?
    Mr. Wright. I have positive and negative things.
    Mr. Rokita. Tell us the positive.
    Mr. Wright. I think a lot of companies want to be in the 
voluntary protection program in part because--this is OSHA 
now--in part because it frees them from routine OSHA 
inspections, but it also is kind of a badge of honor.
    Mr. Rokita. Creates good competition, higher level. I 
appreciate that.
    Mr. Wright. Yes. One of the things we like about it is that 
a company that is unionized cannot be in the VPP unless the 
union agrees. There is a pretty good check on that.
    Mr. Rokita. Right. Thank you, Mr. Wright. For the benefit 
of Mr. Sanders, I would like Mr. Watzman to go into some detail 
about the voluntary protection program. I have a bill that 
several of us in Congress are on that is trying to codify that 
as an eligible use across agencies, including MSHA.
    I would like to know in particular more detail on how you 
think MSHA and therefore miners would benefit from using a VPP.
    Mr. Watzman. Thank you for the question. We think it will 
work for MSHA. We think the experience in OSHA shows that it is 
transferrable to MSHA, and MSHA can structure the program, put 
in the proper safeguards, so that if a mine falls off the wall, 
as Mike talks about, and does not maintain a certain level of 
performance, they can be removed from the program.
    Most importantly, we think it will give MSHA the ability to 
refocus how it allocates its resources and conducts its work. 
Right now, the inspection regime is very rigid. The Mine Act 
uses the phrase ``in its entirety,'' and MSHA interprets ``in 
its entirety'' in the broadest sense possible.
    There are areas of mines where hazards present themselves. 
There are other areas of mines where those hazards do not 
exist. There are mines in this country that have existed for 30 
or 40 years or more, where you travel down entries where rocks 
do not move. They have not moved in 30 years. Yet, MSHA commits 
the same resources inspecting that portion of the mine that 
they do where the hazards present themselves.
    That is what we think that would afford the agency.
    Mr. Rokita. Thank you. In fact, the VPP companies that I 
have seen in different industries, to get to that standard, to 
be let go from some of the routine inspections that Mr. Wright 
kind of described, you have to get to even higher levels of 
compliance than you would normally. Is that correct?
    Mr. Watzman. That is exactly right.
    Mr. Rokita. Thank you. Mr. Elliott, you talked about a 
pattern of compliance program. Is this the same as VPP or is 
this something different, or just as useful or another tool 
that could be in MSHA's tool box?
    Mr. Elliott. I think to your point, it is very similar and 
it would be a situation where if the mine could demonstrate 
compliance, as the VPP points to, then I think the similarities 
would be very close.
    Mr. Rokita. Anything else about a pattern of compliance 
program that works at the state level somewhere or any kind of 
model we might study further?
    Mr. Elliott. My experience has been in a number of states 
that they are more focused on coal. The crushed stone, sand and 
gravel is not the coal industry. When we look at those agencies 
that may come in and are supportive and helpful--I think the 
MSHA Small Mines Office was an example of that, where they went 
into the small operators and tried to help them understand 
compliance and tell them the ways they could be more efficient 
if they were more compliant.
    I think those are the steps where MSHA was somewhat moving 
in that direction.
    Mr. Rokita. Thank you. I yield back.
    Chairman Walberg. I thank the gentleman. Now, reading my 
script here, I recognize my Ranking Member, Ms. Wilson.
    Ms. Wilson. Thank you, Chair. Mr. Sanders, I want to 
commend you for your 25 years of commitment to representing 
coal miners and their survivors attempting to obtain black lung 
benefits.
    Can you explain to us why it is often difficult for miners 
to find legal representation for black lung benefit cases? Why 
are we seeing a spike in new cases of black lung? How do you 
think the new respirable dust rule will affect this trend? 
People are dying.
    Mr. Sanders. Yes. I think it is difficult for miners and 
widows to find representation because of the complexity of the 
claims, the bureaucratic complexity, and sophistication of the 
medical evidence. We are talking about proving disability in a 
pulmonary system and cause of disability. Those are fairly 
complex questions and require--you really have to develop some 
knowledge about that.
    In addition, because the claimant cannot pay their 
attorney, many attorneys do not want to take this kind of work 
on with the expectation that they are not going to get paid 
until the award is final, which may be several years from now. 
There is other legal work that you can do that you can get paid 
up front or you are going to get your fee soon after.
    The amount of the fee is not that high. On an individual 
claim, it is based on your services. It is based on the amount 
of time you put into the case. It is not as if you are handling 
a large fee contingency type case.
    With regard to--did you ask why are we seeing an increased 
number of cases of black lung? There is some speculation about 
that. My own opinion is that modern mining methods using 
continuous mining machines generate a great deal of really fine 
particulate, really fine coal dust and rock dust.
    In eastern Kentucky, a lot of the coal seams that they are 
mining now are separated by bands of silica rock, so when a 
continuous miner operates, it cuts into both the coal and the 
rock, and the miners are exposed to that in the air.
    I think years ago in eastern Kentucky a lot of the mining 
was done shooting the coal, and they were not creating this 
fine particulate matter, mixed coal and rock. I think that is 
part of the problem.
    Another part of the problem could be miners are working 
longer shifts consecutively so there is not time for the dust 
to clear out of their lungs before they go back to work and are 
exposed again. That is another theory that is being looked at, 
I think.
    Was there a third part to your question, Ms. Wilson? I am 
sorry.
    Ms. Wilson. Yes, I wanted to know how the continuous 
personal dust monitors would help.
    Mr. Sanders. They could help a great deal because if you 
are using this and it has this digital readout area and you can 
look at that and you can see what the exposure is where you are 
working, then you can say I do not have good quality air, 
something needs to be done.
    Mines use environmental controls to get good quality air 
into the areas where the miners are working. It could be a 
matter of changing the way the curtains are aligned or 
increasing the amount of air flow into that particular area. It 
would reduce the miners' exposure to excess respirable dust 
immediately.
    Ms. Wilson. Mr. Watzman, you suggested that MSHA was not 
cooperating with the industry, and that you had some complaints 
about the continuous personal dust monitor and the possible 
interference caused by rock dust. Can you elaborate on that for 
me so I understand exactly what you mean?
    Mr. Watzman. Yes, I can. Let me state first that we were 
involved in the development of the CPDM. We support it. We 
supported the development. We support its application and use.
    We have to make sure that we are not substituting one 
problem for another. There is little confidence in the 
technology that is used today, the gravimetric sampler. We need 
to make sure the results from the CPDM are accurate, and that 
is what is lacking today.
    When we are sampling, rock dust becomes entrained in the 
air, and the dust sampler is picking up both rock dust and 
inert dust, and we did a search and could not find any health 
studies that indicated any adverse health outcomes related to 
rock dust exposure.
    Ms. Wilson. I do not want to run out of time. We have a 
letter from the Assistant Secretary of Labor for Mine Safety 
and Health, and he says he is working with you and in 
collaboration with the mining industry to conduct in-mine 
evaluations to identify and apply best practices for managing 
rock dusting and dust sampling.
    Mr. Watzman. We wish them well on that.
    Ms. Wilson. Let's hope that is taking place and you have 
the opportunity to experience that.
    Mr. Watzman. It may be taking place episodically at 
individual mines, but I can tell you that it is not taking 
place with the industry as a whole, to the degree that we 
conducted our own sampling and provided the results to the 
agency, and have yet to have a response from the agency in 
terms of meeting with us to discuss the results we presented.
    Chairman Walberg. The gentlelady's time is expired. We will 
move on.
    Ms. Wilson. We do have a response. Perhaps it just has not 
gotten to you.
    Chairman Walberg. We look forward that all responses go to 
the right sources and we take appropriate action and save 
miners and an industry as well.
    I now recognize the gentlelady from New York, Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman. This question is for 
Mr. Watzman and Dr. Kohler. When I visited Nyco Minerals in my 
District, which is one of the few mines in the world that 
produces wollastonite, a mineral with wide commercial use for 
ceramics, brakes, clutches, and plastics, it was clear to me 
that we need to do more to support the workers that help keep 
our nation's global competitive edge.
    What can be done in your opinion to strike that intelligent 
balance between protecting these workers and making sure we do 
not curb further economic growth by stifling these companies 
with litigious regulations? I will start with you, Mr. Watzman.
    Mr. Watzman. I think it goes back to what we have touched 
upon on so many occasions here, and that is creating a 
cooperative environment where we and the agency sit down and 
address problems rather than going to our respective corners.
    Mining is a very tough business and it is a very 
challenging business today. I look at the coal industry where 
the number of mines since 2011 has dropped by 18 percent. The 
number of mines in this country has dropped overall in that 
same period by 4 percent. Yet, MSHA is getting more resources 
and is refusing to change the way they conduct their business.
    I think we all honestly have to ask ourselves the question 
is the old model working. We have been under the Mine Act for 
46 years. We have made phenomenal progress as an industry 
working with our workforce, working with regulators, but after 
46 years of one model, should we not be better than we are?
    That is really what drove us to CORESafety, to look outside 
the box, to look for a different model that is not enforcement 
oriented, but is proactive rather than reactive, identifying 
risks at the outset and engineering those to the degree you can 
out of the work environment to better protect our workers.
    Ms. Stefanik. Dr. Kohler?
    Dr. Kohler. I would say two things. First of all, I think 
that sitting down and talking, a partnership, is critical. The 
toughest problems we faced in mine safety and health in the 
past 15 years were best solved when industry, organized labor, 
MSHA, NIOSH, manufacturers, all came together, rolled up their 
sleeves and tried to solve the problems. I think we have to 
have that kind of partnership.
    Secondly, I fully support this idea of health and safety 
management systems, whether we call it CORESafety, which the 
NMA has rolled out, or implementation of VPP, I understand 
there are good and bad parts, there are good and bad actors.
    It might be appropriate for an august body like the 
National Academies to actually resolve that question and 
provide guidance on how we can implement that fully.
    Ms. Stefanik. Thank you. My next question is for Mr. 
Elliott. Following up on concerns for maintaining worker 
safety, one mine safety group in my district raised concerns 
that workers have become increasingly concerned with being held 
personally liable for accidental non-compliance. It is my 
understanding and you shared today that over the last few 
years, the number of citations given at mines has increased 
greatly.
    How do we ensure worker safety and maintain an appropriate 
oversight system while also reforming the current challenges 
with this burdensome citation policy?
    Mr. Elliott. That is a heck of a question. If I could do 
that, I would probably be in Congress.
    Really, when we look at the circumstances around trying to 
look for people to come in this industry, it is tough today. It 
is hot, it is cold, it is dirty, it is muddy, all those things 
are involved.
    Like Mr. Watzman said about the approach of the agency, 
from maybe many, many years ago, when the Mine Act first took 
effect, there was methods that were successful at that time.
    I think today, we are in the twenty-first century, and we 
need to get greater efficiency to reach the root issues that 
are affecting the mining environment. Generations change. My 
generation is slowly but surely leaving the industry. Younger 
people are coming in who are more dynamic and more concerned 
about their safety.
    I think the agency has to look at ways to change to meet 
the changing demographics of mining.
    Ms. Stefanik. Thank you very much. I yield back.
    Chairman Walberg. I thank the gentlelady. I now recognize 
the gentleman from Wisconsin, Mr. Pocan.
    Mr. Pocan. Thank you, Mr. Chairman. Mr. Wright, I am going 
to go back to a question that Mr. Rokita asked you because I 
think you got cut off a little bit. You mentioned there were 
positives and negatives to the VPP. If there are any more 
positives you want to mention or any negatives, now is your 
chance.
    Mr. Wright. I would like to mention some of the negatives. 
The program started out, I think, very usefully, but in the 
last administration in particular, the metric for its success 
as the administration saw it was how many companies they could 
get into VPP. We saw company after company that really did not 
deserve to be there.
    One of the things that sort of taught us that was we saw a 
lot of fatalities happening in VPP companies. We went back and 
looked at what caused the fatality, and it was really in some 
cases non-compliance with standards, and in other places, it 
was a real failure to find and fix hazards that should have 
been obvious. Those companies should never have been in VPP.
    In addition, we think what drives companies into VPP--what 
drives voluntary compliance in general--is a strong enforcement 
program. We generally supported the program, but we did not 
support and would not support taking resources away from 
enforcement and putting them into VPP.
    Enforcement--there are just too many hazards out there. We 
see too many violations of law. Even with the 4s and 2s, we 
still see people dying in mines from hazards that went 
unrecognized, from hazards that may have been recognized by the 
company but they did nothing about it, and from things that may 
not be covered by the standards but are nevertheless very 
serious problems.
    Enforcement is what drives voluntary compliance. We cannot 
cut that back. VPP might be fine but not at the expense of a 
strong enforcement program.
    Mr. Pocan. Thank you. Mr. Watzman, you looked like you 
wanted to respond when Mr. Sanders was talking about why we are 
at levels back to the early 1970s with black lung. I just 
wanted to give you the chance. You had that look on your face.
    Mr. Watzman. Well, I appreciate that opportunity. I have 
said before, there is a problem in the industry with black 
lung, but it is not the problem that has been characterized in 
the public domain. It is not the problem that has been 
characterized by the agency. It is a geographic problem in a 
small area.
    What I do is I go back to the NIOSH x-ray surveillance 
program data. NIOSH conducts an x-ray surveillance program. 
They take their van around the country, and they examine miners 
who want to voluntarily participate. We wanted it to be 
mandatory, but it is still voluntary.
    When I look at Utah, for example, they conducted 500 
examinations. They expected the rate of black lung to be 4 
percent, the rate was zero. In Illinois, they expected it to be 
4 percent, it was one. In Indiana, they expected it to be 4 
percent, it was one. In Maryland, they expected it to be three, 
and it was zero.
    Mr. Pocan. Mr. Watzman, just for time reasons, that is the 
main point?
    Mr. Watzman. It is not the problem that has been 
characterized is the point I want to make.
    Mr. Pocan. I assume you would agree this is not a fair 
characterization either. In a recent phone call released during 
the criminal trial of former CEO of Massey Energy, Don 
Blankenship, he said that--these are his words--``Black lung is 
not an issue in this industry, that it is not worth the effort 
that they,'' meaning MSHA, ``puts into it.'' I assume you do 
not agree with that statement.
    Mr. Watzman. As I have said before, there is a problem but 
it is not the problem that has been characterized.
    Mr. Pocan. You do not agree with that statement?
    Mr. Watzman. I do not.
    Mr. Pocan. Thank you. Mr. Wright, in the remaining very 
little time I have left, there has been some talk about 
removing stone quarries from coverage under the Mine Act, 
putting them under OSHA. We had a hearing recently on OSHA, 
they can inspect one site every 140 years, if they get around 
to everything.
    Can you just talk a little bit about why that might be a 
problem?
    Mr. Wright. I will just give you one sentence, this is 
actually two sentences. Last year, we had 15 deaths. I am 
sorry. This year so far, we have had 15 deaths in metal and 
non-metal mines. Nine of them have been in stone, sand, and 
gravel.
    Mr. Pocan. Thank you. I yield back.
    Chairman Walberg. I thank the gentleman. I recognize the 
gentleman from Pennsylvania, Mr. Thompson.
    Mr. Thompson. Thank you, Chairman. I apologize for stepping 
out of the Committee meeting, but I was talking about coal 
while I was there.
    Chairman Walberg. Good for you.
    Mr. Thompson. And the export of some great coal that I 
think is mined in Mr. Cartwright's district that we export.
    Thanks for having this hearing. It is an incredibly 
important hearing for me personally. My grandfather was a coal 
miner, surface miner, but had black lung, diagnosed with black 
lung.
    I will just put a plug in for advocacy when folks are 
trying to advocate for whatever they are pursuing from a 
Federal perspective, use your members of Congress as advocates 
as well when you are looking at programs like that.
    Dr. Kohler, it is always great to have someone here from 
home, we are proud of your leadership and the work that you do 
at Penn State and for mining and preparing mining engineers.
    The first question is for you. I apologize if this has been 
covered already. It has to do with the use of the refuge 
alternatives in the event that a miner cannot leave in an 
emergency. These alternatives are supplied with food, water, 
breathable air, and have been required since 2009. Based on 
NIOSH concerns, MSHA has issued a request for information 
related to the use of refuge chambers.
    Can you discuss the concerns about refuge alternatives in 
underground coal mines?
    Dr. Kohler. Yes. The specific concern with respect to the 
mobile alternatives is in principle, it is a great idea, but 
given the spatial constraints in an underground coal mine, 
given the requirements, the time period in which they need to 
remain functional, given the complexity it takes to understand 
how to deploy these systems, and given a number of engineering 
problems that have surfaced over the last five or six years, it 
is clear that this technology, despite the best efforts of 
manufacturers, MSHA, NIOSH, and everyone else, is simply not 
making it. That is the reason why miners have no confidence in 
it at all.
    We have better alternatives out there. We need to get on 
with that. While it is true that the in-place shelter, for 
example, will not work in every single mine, and in some cases, 
there are distance concerns, it would serve a majority of 
miners, unlike the current technology.
    Mr. Thompson. Mining engineering obviously is a highly 
technical specialty and there is a great need for mining 
engineers in the United States. How can the industry and 
government attract students to that profession?
    Dr. Kohler. The greatest deterrent to students moving into 
the profession is the public image that the industry has. Most 
people do not realize how modern mining has become and in most 
regards, environmentally sustainable, responsible from a safety 
and health perspective. Most people do not understand the value 
of mine products in the economy. They do not understand that 15 
percent of our gross national product is tied to mining.
    To the extent that the industry can do a better job of 
marketing itself, and we like to say, we do not often have to 
convince the kids to come into mining, it is their mothers that 
present the real challenge.
    Mr. Thompson. Thank you. Mr. Watzman, over the last 10 
years, the number of coal mines operating in the country 
obviously has been sharply reduced. We have sadly watched that 
occur, as really the coal industry has been under attack.
    How many coal mine inspectors does MSHA currently employ, 
and what have the mine operators seen as a result of having 
fewer mines but the same number of inspectors.
    I would also like you to reflect on--I have an MSHA unit in 
my district. They are great people. I have gone early morning's 
before they go out, so it is a real early start. Some of the 
things I have heard from the individuals in the coal mines is 
some of the new ones coming on just do not have practical 
experience. They have a great education.
    Any reflection on how the experience as we have attrition 
have lost people who have actually worked in mining that have 
gone on to become inspectors, and now sometimes we do not have 
that practical experience today.
    Mr. Watzman. Let me start with your first question. I do 
not know the exact number, but I believe MSHA has approximately 
700, give or take a few, coal mine inspectors. That number has 
remained pretty constant for the last number of years, even 
though the number of coal mines has dropped precipitously.
    What that means is you have a greater presence of MSHA 
inspectors at the mines that remain operating in those 
districts. Let's be clear. When MSHA is on-site, that involves 
management as well. That takes away from their normal safety 
activities because they accompany MSHA as they go through the 
mines.
    There is a detrimental effect to a degree from the 
perspective of how companies manage safety at the operations.
    As I said in my testimony, it is not uncommon today in some 
of the mines, especially in Appalachian, to have four, five, 
six MSHA inspectors on-site every day the mine is operating. 
That is a dramatic change from what we saw in the past.
    You are right. As the generation has changed, inspectors 
who were better seasoned--this will change over time as this 
generation learns more about what they are doing--we are seeing 
things that were not cited in the past, that are being 
interpreted differently by this generation as they come out of 
the Academy. What they have learned is they have learned the 
book. That is what they follow. They follow 30 CFR. That is 
their gospel, if you will.
    We have seen that dynamic change. Hopefully, with time, as 
these individuals become more experienced, we will see the 
pendulum swing more back towards the middle.
    Chairman Walberg. I thank the gentleman. The gentleman's 
time has expired. I now recognize, staying with Pennsylvania, 
the gentleman from Pennsylvania, Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman. I thank you for 
having me here in the subcommittee. I also want to recognize 
Mr. Thompson, thank you for having me as well. Thank you also 
for sharing that, it was your grandfather that had black lung.
    I have an awful lot of black lung sufferers and recipients 
in my District. We can argue about the prevalence level, you 
know, the amount of black lung that is out there, but nobody 
would disagree that we want to make the process fair, and thank 
you for nodding in agreement, Mr. Watzman. I appreciate that.
    I am moving this microphone as far away as I can.
    Chairman Walberg. It may be black lung in the system. I am 
not sure.
    Mr. Cartwright. Mr. Sanders, a Pulitzer Prize winning 
investigation by the Center for Public Integrity found that 
doctors at Johns Hopkins who were hired to help coal companies 
fight black lung disease----
    Chairman Walberg. I wish we were more accommodating to a 
member who joins this Committee. My apologies. We are not 
taking your time away for that.
    Mr. Cartwright. Thank you. I appreciate that, Mr. Chairman. 
This Pulitzer Prize winning study found that doctors at Johns 
Hopkins in Baltimore who were hired to help coal companies 
fight against black lung claims have systematically 
misdiagnosed miners with black lung as having other non-
compensable diseases, thus preventing those miners from 
accessing benefits.
    It is not a funny situation. The report found that more 
than 1,500 black lung claims since the year 2000 were handled--
--
    Chairman Walberg. If you would like to join us up here, we 
have not had that problem. Let's try that. I know it can be 
irritating when you have that going in your own ear. This makes 
us wish for our new Committee chambers, right?
    Mr. Cartwright. My first day and I get to be on the upper 
dais, pretty good.
    Chairman Walberg. This is a great subcommittee.
    Mr. Cartwright. Thank you, Mr. Chair. We are talking about 
Johns Hopkins and how they had a doctor who misdiagnosed black 
lung disease. His name was Dr. Paul Wheeler. The investigation 
revealed that in more than 1,500 black lung claims since the 
year 2000, Wheeler had never once in more than 3,400 x-ray 
readings interpreted an x-ray as positive for complicated black 
lung, a condition that would presumptively entitle somebody to 
black lung benefits, but many other doctors in autopsy results 
revealed the presence of the disease.
    In response to this Pulitzer Prize winning investigation, 
Johns Hopkins suspended the program to their credit.
    My question to you is what should be done to remedy this 
situation for miners or their survivors? Mr. Sanders?
    Mr. Sanders. I think that the miners or survivors whose 
claims contained evidence from Dr. Wheeler or the other 
radiologists at Johns Hopkins should be reviewed. That is they 
should have an opportunity to have their case readjudicated 
without the questionable evidence.
    Mr. Cartwright. Even more troubling to me, Dr. Wheeler was 
certified by NIOSH to classify lung x-ray readings. He had to 
pass a rigorous test and become a so-called ``B Reader.'' You 
are familiar with that term?
    Mr. Sanders. Yes.
    Mr. Cartwright. He had to be re-tested every four years, 
and he apparently read the x-rays correctly on the NIOSH test, 
but he chose to under read x-rays in litigation. What should be 
done about that?
    Mr. Sanders. That is a very difficult question. NIOSH has 
operated the B Reader program as a way of classifying x-rays in 
what is called the ILO system for pneumoconiosis for some time. 
It is supposed to provide us with a good quality reading, not 
just for evidence purposes in black lung benefits claims, but 
actually it is useful for epidemiological studies.
    I think there needs to be some type of a quality assurance 
program, and NIOSH has to investigate questionable B Reader 
practices, and suspend or terminate the person's B Reader 
status as a result of their investigation. They have to have 
that authority.
    Mr. Cartwright. That makes sense. Mr. Sanders, this 
investigative series also revealed something that was even 
maybe more disappointing. It showed that coal company lawyers 
withheld medical evidence from claimants and their counsel 
where evidence proved that the miners had black lung.
    My question for you: is it true that coal companies have 
fought claims by cherry picking medical reports to support 
their defensive claims and withholding medical reports that 
would corroborate the presence of compensable black lung 
disease?
    Mr. Sanders. That is true. In the written materials, I 
discussed the case of Gary Fox, and if you look, it is a 
reported decision from the Court of Appeals. If you look at the 
facts of that case, it corroborates it, absolutely, not only 
did they withhold evidence from the adjudicator, but they 
cherry picked the evidence that they sent to pulmonary 
specialists. Then when they got the report from the pulmonary 
specialists, they submitted that as evidence. They really had 
skewed the record in Mr. Fox's case, and it has happened in 
other cases. Hopefully, it is not very common.
    Mr. Cartwright. Mr. Sanders, the GAO, the Government 
Accountability Office, has reported that many black lung 
claimants are without the necessary medical and legal resources 
to secure benefits, and you have discussed that here today.
    Given the adversarial nature of black lung proceedings, DOL 
says only 30 percent of miners have legal representative where 
they file a claim. The coal companies always have lawyers, do 
they not?
    Mr. Sanders. Yes, they do.
    Mr. Cartwright. Why are so few miners represented by 
counsel? Are there obstacles beyond the ones you have already 
discussed to securing legal representation?
    Mr. Sanders. You know, there is a limited number of 
attorneys frankly that are willing to take these kinds of cases 
on. I am pretty familiar with most of the ones that are in the 
region of the country that I live in. They are just not very 
many of us.
    Mr. Cartwright. Let me ask you this. I filed--I am the 
author last month of the Black Lung Benefits Improvement Act of 
2015, and I am proud to say I have original co-sponsors, 
Ranking Member Wilson and Representative Scott, on the bill. 
Are you familiar with that bill?
    Mr. Sanders. I am.
    Mr. Cartwright. Do you believe it remedies many of the 
situations you and I have been discussing here today?
    Mr. Sanders. I do. Earlier, we talked particularly about 
representation, the opportunity for an attorney if they are 
representing a claimant to get compensation for their time 
during the course of the adjudication. I think that would be 
very helpful.
    I think also the opportunity to get reimbursement for 
medical expenses so you could better develop the evidence that 
proved the claimant is entitled to black lung benefits. I think 
those are very important provisions.
    Mr. Cartwright. I thank Mr. Sanders, and thank you, Mr. 
Chairman. I am sorry I broke your PA system. I yield back.
    Chairman Walberg. We will find an attorney.
    Thank you for participating, and thank you to the panel, 
appreciate the work all of you do for the industry, for 
individuals, for the economy, and all that goes with it.
    Now we have time for closing, and I recognize the Ranking 
Member, Ms. Wilson, for her closing comments.
    Ms. Wilson. First of all, I would like to thank the 
witnesses for being here today. I would like to thank Chairman 
Walberg for holding this hearing. I appreciate the conversation 
from the members of the Committee.
    This is very emotional for me. I just cannot even imagine, 
in fact, I am planning a trip to a mine, because I want to see. 
I am from Miami, Florida. I have never experienced this.
    In the recent news, we have heard some questions about 
whether black lung disease is worth MSHA's efforts.
    One cannot possibly look at the steep rise in the rates of 
the disease and conclude black lung is not worth MSHA's 
efforts. One cannot hear Steve Day's heart breaking story and 
stories of other men and women who have suffered from this 
incurable disease and conclude black lung is not worth MSHA's 
efforts.
    One cannot think about Steve Day's widow and the thousands 
of widows she represents and conclude black lung is not worth 
MSHA's efforts.
    Mining is one of the most dangerous jobs in America, and 
the men and women who take on this work deserve MSHA's reasoned 
efforts to protect them against this horrible disease. Black 
lung disease is man-made, and we have the power to end it.
    More than a year after MSHA's new respirable dust standards 
went into effect, sampling results showed that coal operators 
are complying with the rule and miners are better protected. 
The upcoming phases of the rule do even more to protect miners.
    Most coal operators are deeply committed to the health of 
their employees and recognize their responsibility to care for 
those former employees with the disease. Unfortunately, some 
coal operators refuse to live up to that responsibility, 
choosing instead to use the medical and legal system to deny 
miners their deserved benefits.
    Steve Day's story brings to life the heart breaking 
consequences of unfair tactics designed to release coal mine 
operators of their responsibility to afflicted miners.
    I thank the witnesses again today for being here and 
helping us better understand the obstacles claimants face in 
securing their benefits. We have to do better.
    Mr. Chairman, I know that you are just as committed as I am 
to protecting miners' health. I hope we can find common ground 
and work to pass provisions in the Black Lung Benefits 
Improvement Act.
    I also want to thank the witnesses for their discussion on 
the legislative reforms needed to improve the Mine Act. As 
mentioned during our April meeting, I hope we can work together 
on needed improvements to the Mine Act. Thank you, and I yield 
back.
    Chairman Walberg. I thank the gentlelady. I appreciate 
those remarks. I think we do certainly agree that this is an 
industry across the board, whether it be coal mining--I had the 
privilege of going down into underground mining operators on 
several occasions, including once with Mr. Main. In fact, we 
drove past his house, boyhood home, on the way to that mine. We 
saw families who have had their lives affected in a positive 
way from having mining operations there for generations, and a 
continuous operation.
    We also have had the opportunity to meet miner families who 
have now lost their occupation. There is that challenge we have 
as well.
    I have had the opportunity to be in surface mining 
operations in North Dakota, in the Upper Peninsula of Michigan, 
with coal, with metallic/non-metallic mines, also to be under 
the City of Detroit in its salt mines, a totally different 
operation, with gas powered Gators running around in that mine, 
not like you would find in a coal mine.
    It is a diverse industry, and it is an industry that needs 
to work cooperatively with the regulator, but vice versa as 
well. There has to be a partnership. I do not know how in the 
world it can be moved forward in safety factors as well as the 
continuity needed for providing a secure industry without a 
partnership relationship, that a regulator looks to the best 
practices of the industry, and the industry makes sure its 
operations with as much as possible compliance from everyone in 
the industry, works together and to ferret out the bad actors, 
that thankfully are far and few between.
    When we look back at the impact of Upper Big Branch, for 
instance, and now the industry that has taken over that and is 
struggling with the economy because of the challenges brought 
on by a bad actor, we need to make sure that we do not just 
step in with regulation, but we do it right.
    That is what I think this testimony has given today from 
all sides of the ledger to help us as we move forward, but move 
forward with a purpose in mind, individuals, miners, families, 
and operators remain as the central focus for success in the 
industry, and ultimately success for what they produce in the 
lives of the rest of us.
    Thanks again for the Committee members, the staff, as well 
as those who have given testimony today for making this, I 
believe, a valuable hearing.
    There being no further agenda for the Committee, with the 
bit in hand, I declare it adjourned.
    [Additional submission by Mr. Watzman follows:]
    [Additional submission by Ms. Wilson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]

                                  [all]
</pre></body></html>
